Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                   Reporting OIG: Department of State - OIG
               Month Ending Date: 09/30/2010

                                                                  Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau        Recovery Act TAFS          Award Type        US Indicator        Total Obligations     Total Gross         Direct or             Ordering TAFS
No.                                                                                                                          Outlays         Reimbursable
      Department of State - OIG    (19-0530 2009 \ 2010)       Contracts and         Y - US              $37,608            $27,070
                                   State - OIG - Recovery    Orders (including
 1                                 Act                        modifications)                                                               Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)       Contracts and         Y - US             $137,618            $125,386
                                   State - OIG - Recovery    Orders (including
 2                                 Act                        modifications)                                                               Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $25,000            $17,129
                                   State - OIG - Recovery   Orders (including
 4                                 Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US             $108,308            $92,659
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US             $118,799            $11,419
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $95,137            $15,354
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US             $164,159            $27,483
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $88,574            $19,995
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $72,249            $33,095
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $95,137            $18,713
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $95,137            $17,302
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US             $167,059            $44,549
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US             $495,331            $110,778
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $11,539            $8,690
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $18,450            $12,183
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $16,761            $11,501
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $18,667            $10,886
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $13,124            $10,025
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct              N/A




                                                  Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau          FY 2009 Non-            Total FY 2009      Total FY 2009    FY 2010 Non-Recovery    Total FY 2010      Total FY 2010
No.                                 Recovery Act TAFS          Obligations       Gross Outlays          Act TAFS           Obligations       Gross Outlays
      Department of State - OIG    (19-0529 2009) State -              $59,536           $59,536 (19-0529 2010) State -         $105,056            $105,056
 1                                 OIG                                                           OIG
 2
 3
 4
 5
 6
 7
 8
Monthly Update Report Data (sheet 2 of 5) Version 5.0a
    Reporting OIG: Department of State - OIG

Month Ending Date: 9/30/2010


                                                         Fiscal Year 2009
                                                                       Monetary Results - Audits, Inspections,
                           Monetary Results -Investigations
                                                                                    Reviews*

                                                                            Questioned Costs
                             Recoveries (FY 09):
                                                                                     (FY 09):


                                                                        Unsupported Costs
                   Forefeitures/Seizures (FY 09):
                                                                                  (FY 09):

                                                                        Recommendations
                      Estimated Savings (FY 09):                          for Better Use of
                                                                             Funds (FY 09):



                                                         Fiscal Year 2010
                                                                        Monetary Results - Audits, Inspections,
                           Monetary Results -Investigations
                                                                                     Reviews*

                                                                            Questioned Costs
                             Recoveries (FY 10):
                                                                                     (FY 10):


                                                                        Unsupported Costs
                   Forefeitures/Seizures (FY 10):
                                                                                  (FY 10):

                                                                        Recommendations
                      Estimated Savings (FY 10):                          for Better Use of
                                                                             Funds (FY 10):



                                                  Cumulative Since 2/17/2009
                                                                     Monetary Results - Audits, Inspections,
                           Monetary Results -Investigations
                                                                                  Reviews*

                                                                            Questioned Costs
                       Recoveries (cumulative):       $0.00                                       $0.00
                                                                               (cumulative):


                           Forefeitures/Seizures                        Unsupported Costs
                                                      $0.00                                       $0.00
                                   (cumulative):                             (cumulative):


                                                                        Recommendations
                               Estimated Savings
                                                      $0.00               for Better Use of       $0.00
                                    (cumulative):
                                                                       Funds (cumulative):
Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Department of State - OIG
    Month Ending Date: 9/30/2010

                            FTE Working on Recovery
                                                                                                                                          Testimonies:
      Fiscal Year              2009            2010              Cumulative
       Newly Hired FTE
                              0.00             0.00                  0.00                                                         Provided (monthly):        0
         (cumulative):

FTE Funded by Recovery
                              0.08             2.99                  3.07                                                       Provided (cumulative):       0
 Act Funds (cumulative):

     FTE Not Funded by
    Recovery Act Funds        0.50             0.65                  1.15
          (cumulative):

                                                                                                                              Audits / Inspections / Evaluations /
               Complaints                          Whistleblower Reprisal Allegations                Investigations                                                        Training / Outreach
                                                                                                                                            Reviews
             Monthly Data                                    Monthly Data                            Monthly Data                        Monthly Data                         Monthly Data

                                                                                                                                                                           Training Sessions
              Received:         0                                      Received:        0      Opened (this month):     0       Initiated (this month):      0                                   0
                                                                                                                                                                                  Provided:

                                                                                             Active (as of the end of         In Process (as of the end
                                                                       Accepted:        0                               0                                   11          Individuals Trained:     0
                                                                                                         the month):                    of the month):
                                                                                                                                      Completed Final
                                                                                                                                                                          Hours of Training
                                                                                                   Pending Decision:    0             Published Work         0                                   0
                                                                                                                                                                                 Provided:
                                                                                                                                              Products:
                                                                                                                                       Priority Interim
                                                                                                                                                                          Outreach Sessions
                                                                                              Closed without Action:    0             Published Work         0                                   0
                                                                                                                                                                                Conducted:
                                                                                                                                              Products:
                                                                                                                                    Unpublished Work
                                                                                               Prosecution Declined:    0                                    0
                                                                                                                                            Products*:

                                                                                             Referred for Alternative
                                                                                                                        0                 QCRs Issued:       0
                                                                                                          Resolution:

                                                                                                       Convictions,
                                                                                                Settlements, Pleas,      0
                                                                                                        Judgments:
   Cumulative Data Since 2/17/2009                 Cumulative Data Since 2/17/2009          Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                    Completed Final
                                                                                                                                                                           Training Sessions
              Received:         3                                      Received:        1     Closed without Action:    0            Published Work       7                                      2
                                                                                                                                                                                  Provided:
                                                                                                                                           Products:
                                                                                                                                     Priority Interim
                                                                       Accepted:        0      Prosecution Declined:    0            Published Work       0             Individuals Trained:     35
                                                                                                                                           Products:

                                                                                             Referred for Alternative               Unpublished Work                      Hours of Training
                                                                                                                        0                                    1                                   55
                                                                                                          Resolution:                      Products*:                            Provided:

                                                                                                        Convictions,
                                                                                                                                                                          Outreach Sessions
                                                                                                 Settlements, Pleas,    0                 QCRs Issued:       0                                   4
                                                                                                                                                                                Conducted:
                                                                                                         Judgments:

                                                                                                  Cumulative Total:     0           Cumulative Total:        8
Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 09/30/2010

       No.                         OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     Audits were initiated by an independent public accounting firm of IBWC Recovery Act contracts for seven construction
         1           companies and one architectural and engineering firm, including contractor compliance with labor standards and
                     regulations
                     Auditors returned from conducting fieldwork at four overseas posts on audits to replace desktop computers and diplomatic
         2
                     facility telephone systems using ARRA funds
         3
         4
         5
         6
         7
         8
         9
        10

       No.                                 OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Audit staff will be developing findings based on overseas audit fieldwork over the next two to three months.
                     Audit staff will continue to provide oversight of nine IPA-conducted audits of State Department projects funded with ARRA
         2
                     funds
                     Audit staff will assist an IPA conducting a performance audit of Worldwide Computer Security System Enhancements
         3
                     funded by ARRA.
         4
         5
         6
         7
         8
         9
        10
Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Department of State - OIG
   Month Ending 09/30/2010

                                                                      TRAINING ACTIVITIES
                                                                                                                                           Hours of
                                                                                     Training                   Length of                  Training
                                                 Target                                              Date of                 Number of                   Cost of
     No.               Type of Training                        Title of Training   Location (City,              Training                  Provided
                                                Audience                                             Training               Participants                 Training
                                                                                       State)                    (hours)                   (length x
                                                                                                                                         participants)
      1                                                                                                                                              0
      2                                                                                                                                              0
      3                                                                                                                                              0
      4                                                                                                                                              0
      5                                                                                                                                              0
      6                                                                                                                                              0
      7                                                                                                                                              0
      8                                                                                                                                              0
      9                                                                                                                                              0
      10                                                                                                                                             0
      11                                                                                                                                             0
      12                                                                                                                                             0
      13                                                                                                                                             0
      14                                                                                                                                             0
      15                                                                                                                                             0
                                                                                                                 TOTAL                 0             0

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                          Outreach
                    Organization to which                     Description of                          Date of
     No.                                      Represented at                       Location (City,
                     Outreach Provided                          Outreach                             Outreach
                                                Outreach                               State)
                                                 Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10
